HHS/OIG-Audit--"Ten-State Review of Outpatient Psychiatric Services at Acute Care Hospitals, (A-01-99-00507)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ten-State Review of Outpatient Psychiatric Services at Acute Care Hospitals," (A-01-99-00507)
March 27, 2000
Complete
Text of Report is available in PDF format (2.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates that, in the ten States reviewed, about $224.5 million of $381.9 million in 1997 outpatient
psychiatric claims made by acute care hospitals did not meet Medicare's reimbursement requirements. The claims were unallowable
because they were; (1) not documented in accordance with Medicare requirements, (2) not reasonable and necessary, and/or
(3) rendered by unlicenced personnel. We recommended that the Health Care Financing Administration; (1) consider implementing
a first claim medical review of a random sample of new outpatient psychiatric claims to ensure that Medicare program requirements
are met, (2) require Medicare fiscal intermediaries to increase post-payment reviews of outpatient psychiatric service
claims, (3) require the fiscal intermediaries to initiate recovery of payments found in error, and (4) further emphasize
its documentation requirements for all types of outpatient psychiatric services through seminars, education sessions, and
newsletters. The HCFA generally concurred with our recommendations 2 through 4, but questioned the cost effectiveness of
the first recommendation.